Office of Material Loss Reviews
Report No. MLR-10-018


Material Loss Review of Temecula Valley
Bank, Temecula, California




                                  February 2010
                                     Executive Summary

                                     Material Loss Review of Temecula Valley Bank,
                                     Temecula, California
                                                                                     Report No. MLR-10-018
                                                                                             February 2010
Why We Did The Audit
On July 17, 2009, the California Department of Financial Institutions (CDFI) closed the Temecula Valley
Bank (TVB) and named the FDIC as receiver. On August 12, 2009, the FDIC notified the Office of
Inspector General (OIG) that TVB’s total assets at closing were $1.4 billion and the material loss to the
Deposit Insurance Fund (DIF) was $384.5 million. As required by section 38(k) of the Federal Deposit
Insurance (FDI) Act, the OIG conducted a material loss review of the failure of TVB.

The audit objectives were to (1) determine the causes of TVB’s failure and the resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of TVB, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38.

Background
TVB opened for business on December 16, 1996, as a nationally-chartered bank regulated by the Office
of the Comptroller of the Currency. On June 29, 2005, TVB converted from a national to a state charter.
At that time, supervision of the bank transferred to the Federal Reserve Bank of San Francisco (FRBSF).
On August 23, 2006, TVB withdrew from the Federal Reserve Bank System, to become a state-chartered,
nonmember bank regulated by the FDIC. TVB was headquartered in Temecula, California, and had
11 full-service banking offices in Riverside, San Diego, and San Bernardino counties in California, as
well as several loan production offices throughout California.

TVB engaged in community banking and commercial real estate (CRE) lending activities, including a
significant amount of residential and commercial acquisition, development and construction (ADC)
lending. The majority of the bank’s lending was within California; however, the bank’s lending programs
also included loans originated under TVB’s nationwide Small Business Administration (SBA) lending
program. Under the SBA program, TVB became a "preferred lender", originating and funding loans
primarily secured by CRE property and guaranteed up to 85 percent by the SBA.

Audit Results
Causes of Failure and Material Loss

TVB failed because its Board of Directors (Board) and management did not implement adequate controls
to identify, measure, monitor, and control the risks associated with the bank’s significant growth and
concentrations in CRE loans and, in particular, ADC loans. In addition, TVB failed to implement
adequate credit risk management controls and ensure that the bank maintained an adequate allowance for
loan and lease losses (ALLL). TVB funded its CRE and ADC loans through potentially volatile sources,
such as time deposits greater than $100,000 and brokered deposits. As TVB’s financial condition
deteriorated, the bank’s access to funding became strained and subject to regulatory restrictions, leading
to an unsatisfactory liquidity position. By mid-2009, cumulative net losses associated with deterioration
in TVB’s CRE and ADC loans far exceeded the bank’s earnings and severely eroded capital. The CDFI
closed TVB because the bank’s Board and management were unable to find a suitable acquirer or raise
sufficient capital to support the bank’s operations and improve its capital position.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary                  Material Loss Review of Temecula Valley Bank,
                                      Temecula, California
                                                                                      Report No. MLR-10-018
                                                                                              February 2010

The FDIC’s Supervision of TVB

From August 2006 until the bank failed in July 2009, the FDIC, in conjunction with the CDFI, provided
ongoing supervision of TVB through three on-site risk management examinations and three visitations.
The FDIC also conducted offsite reviews and other offsite monitoring activities through it Relationship
Manager Program. Through its supervisory efforts, the FDIC identified risks in TVB’s operations and
brought these risks to the attention of the bank’s Board and management through examination reports and
other correspondence. Such risks included the bank’s significant concentration in CRE loans, including
ADC loans; weaknesses in credit risk management practices related to credit administration and the
ALLL; and excessive reliance on potentially volatile funding sources. Examiners also reported apparent
violations of regulations and contraventions of interagency policy associated with the institution’s lending
practices. In addition, examiners performed procedures to determine whether the bank had taken
appropriate corrective action to address examiner recommendations, including those made by the FRBSF
examiners prior to the bank’s conversion to a state nonmember bank, and developed additional
recommendations when the bank’s corrective actions were not adequate.

The FDIC also pursued enforcement actions to correct problems identified in the April 2008 examination
and December 2008 visitation. The FDIC’s supervisory approach to TVB was consistent with prevailing
guidance and practices at the time for a bank with TVB’s risk profile. However, a lesson learned would
be that earlier and greater supervisory attention to an institution like TVB is warranted, in light of the
significant risk associated with high CRE and ADC concentrations in a declining real estate market, as
identified by examiners in connection with the April 2007 examination and offsite monitoring conducted
shortly thereafter.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for TVB.

Management Response
After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On February 12, 2010, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of TVB’s failure. In addition, DSC stated that
the rapid deterioration of local California real estate markets resulted in increased delinquencies and non-
performing assets. Regarding our assessment of the FDIC’s supervision, DSC stated that the FDIC and
CDFI jointly conducted three full-scope examinations and three visitations from 2006 to 2009. DSC also
conducted offsite reviews and other offsite monitoring activities during this period. Further, DSC stated
that it recognizes that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations and volatile funding sources, such as TVB, and has issued updated guidance reminding
examiners to take appropriate action when these risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                  Page
Background                                                          2

Causes of Failure and Material Loss                                 3
   Board and Management Planning and Oversight                      3
   CRE and ADC Loan Concentrations                                  6
   Credit Risk Management Practices                                 8
   Allowance for Loan and Lease Losses                              9
   Liquidity Management and Contingency Planning                   10

The FDIC’s Supervision of TVB                                      12
   Supervisory History                                             13
   Supervisory Response to Risks Identified at TVB                 16
   Implementation of PCA                                           21

Corporation Comments                                               24

Appendices
  1. Objectives, Scope, and Methodology                            25
  2. Glossary of Terms                                             28
  3. Acronyms                                                      30
  4. Corporation Comments                                          31

Tables
  1. Financial Condition of TVB                                     3
  2. TVB’s Adversely Classified Items and ALLL                      9
  3. TVB’s Level of Large Time Deposits and Brokered Deposits      10
  4. TVB’s Net Non-Core Funding Dependence Ratio Compared to       11
       Peers
  5. TVB’s Examination and Visitation History, 2006 to 2009        13
  6. TVB’s Capital Ratios Relative to PCA Thresholds for Well      22
       Capitalized Banks
  7. TVB’s Total Risk-Based Capital Ratio Compared to Peers        22


Figures
   1. TVB’s Annual Loan Growth Compared to Peers                    4
   2. TVB’s ADC Loans as a Percent of Average Gross Loans           5
        Compared to Peers
   3. TVB’s Loan Portfolio Composition and Growth                   7
   4. TVB’s ADC Loan Concentration to Total Capital Compared to     8
        Peers
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           February 12, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection



                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Temecula Valley Bank, Temecula,
                                                California (Report No. MLR-10-018)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Temecula
Valley Bank (TVB), Temecula, California. On July 17, 2009, the California Department
of Financial Institutions (CDFI) closed the institution and named the FDIC as receiver.
On August 12, 2009, the FDIC notified the OIG that TVB’s total assets at closing were
$1.4 billion and the material loss to the Deposit Insurance Fund (DIF) was
$384.5 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of FDI Act section 38. This
report presents the FDIC OIG’s analysis of TVB’s failure and the FDIC’s efforts to
ensure TVB’s management operated the bank in a safe and sound manner. We are not
making recommendations. Instead, as major causes, trends, and common characteristics


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
of financial institution failures are identified in our reviews, we will communicate those
to management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of DSC’s supervision program and make
recommendations, as warranted. Appendix 1 contains details on our objectives, scope,
and methodology. Appendix 2 contains a glossary of terms and Appendix 3 contains a
list of acronyms used in the report. Appendix 4 contains the Corporation’s comments on
this report.


Background
TVB opened for business on December 16, 1996, as a nationally-chartered bank
regulated by the Office of the Comptroller of the Currency (OCC). On June 29, 2005,
TVB converted from a national to a state charter to take advantage of higher legal lending
limits and reduced examination fees.3 At that time, supervision of the bank transferred to
the Federal Reserve Bank of San Francisco (FRBSF). On August 23, 2006, TVB
withdrew from the Federal Reserve Bank System to become a state-chartered,
nonmember bank regulated by the FDIC.

TVB was headquartered in Temecula, California, and had 11 full-service banking offices
in Riverside, San Diego, and San Bernardino counties in California, as well as several
loan production offices throughout California. In addition, until early 2009, TVB had
Small Business Administration (SBA) loan production offices in Arizona, California,
Florida, Nevada, Oregon, and Texas. TVB was wholly-owned by Temecula Valley
Bancorp, Inc. (Bancorp), a one-bank holding company established in June 2002.
Bancorp’s stock was widely held, with the former Chairman, President and Chief
Executive Officer representing the largest shareholder, as of December 31, 2008, owning
approximately 6.6 percent of the outstanding stock.

TVB engaged in community banking and commercial real estate (CRE) lending
activities, including a significant amount of residential and commercial acquisition,
development and construction (ADC) lending. The majority of the bank’s lending was
within California; however, the bank’s lending programs also included loans originated
under TVB’s nationwide SBA lending program. Under the SBA program, TVB became
a "preferred lender", originating and funding SBA 504 and 7(a)4 loans, primarily secured
by CRE property and guaranteed up to 85 percent by the SBA. In 2008, the bank was
one of the largest SBA 7(a) lenders in the nation based on dollar volume of loans.

Table 1 presents a summary of TVB’s financial condition as of June 2009 and for the
5 preceding calendar years.




3
  TVB Bancorp, Inc., Securities and Exchange Commission, Form 10-K, for the fiscal year ended
December 31, 2006.
4
  These SBA loan products are further defined in Appendix 2 of this report.

                                                  2
     Table 1: Financial Condition of TVB
      Financial Measure      Jun-09 Dec-08 Dec-07            Dec-06      Dec 05   Dec 04
                                  (Dollars in Millions)
     Total Assets         $1,397 $1,510             $1,317      $1,237    $868     $606
     Total Loans          $1,192 $1,380             $1,238      $1,144    $753     $530
     Total Deposits       $1,276 $1,297             $1,164      $1,091    $744     $536
     Loan Loss Allowance   $51     $52                $16         $13      $9       $6
     Net Income (Loss)   ($72.9) ($56.6)             $17.0       $18.4   $15.1    $11.2
     Net Interest Margin  1.98%   3.80%             5.55%       6.51%    6.76%    5.86%
     Return on Assets    (9.73%) (3.91%)            1.31%       1.80%    2.07%    2.14%
     Source: Uniform Bank Performance Reports (UBPR) for TVB.



Causes of Failure and Material Loss
TVB failed because its Board of Directors (Board) and management did not implement
adequate controls to identify, measure, monitor, and control the risks associated with the
bank’s significant growth and concentrations in CRE loans and, in particular, ADC loans.
In addition, TVB failed to implement adequate credit risk management controls and
ensure that the bank maintained an adequate allowance for loan and lease losses (ALLL).
TVB funded its CRE and ADC loans through potentially volatile sources, such as time
deposits greater than $100,000 and brokered deposits. As TVB’s financial condition
deteriorated, the bank’s access to funding became strained and subject to regulatory
restrictions, leading to an unsatisfactory liquidity position. By mid-2009, cumulative net
losses associated with deterioration in TVB’s CRE and ADC loans far exceeded the
bank’s earnings and severely eroded capital. The CDFI closed TVB because the bank’s
Board and management were unable to find a suitable acquirer or raise sufficient capital
to support the bank’s operations and improve its capital position.

Board and Management Planning and Oversight

TVB’s Board and management failed to effectively supervise the operations and promote
the overall welfare of the institution. TVB’s Board and management implemented a
high-risk business strategy that included rapid growth, with a focus on earnings, by
investing the majority of the bank’s assets in higher-risk CRE and ADC loans while
maintaining limited liquid assets. The bank relied on potentially volatile funding sources
to support and sustain this loan growth strategy. Although this strategy allowed TVB to
generally be Well Capitalized, as defined by section 38 of the FDI Act, and profitable
through 2006, the bank’s earnings and capital deteriorated once the economy started to
decline in 2007. Also, as discussed later in this section, the influence exerted by a senior
official and director over TVB’s Board and management contributed to the bank’s
inability to effectively manage the risks associated with the bank’s loan concentrations
and potentially volatile funding.

According to DSC’s Risk Management Manual of Examination Policies (Examination
Manual), the quality of management is probably the single most important element in the


                                                3
successful operation of a bank. The Board formulates sound policies and objectives for
the bank, and provides for the effective supervision of its affairs and promotion of its
welfare. The primary responsibility of senior management is to implement the Board’s
policies and objectives into the bank’s day-to-day operations. However, by TVB’s
March 2009 examination,5 examiners concluded that TVB’s management was critically
deficient and had not been sufficiently proactive in identifying the extent of problem
assets. Further, management had failed to (1) reduce the size of the bank to improve
liquidity and capital; (2) develop realistic budget, strategic and capital plans; and
(3) maintain effective internal controls.

High-Risk Business Strategy

TVB’s Board and management did not sufficiently curtail the bank’s lending until
substantial deterioration in the bank’s financial condition had occurred, in spite of
regulatory concerns and a significant decline in the economic environment. As shown in
Figure 1, TVB pursued a strategy of rapid loan growth from 2003 to 2006 that
significantly exceeded the average for its peer group,6 with annual loan growth ranging
from 33 percent to 52 percent during that period.7

Figure 1: TVB’s Annual Loan Growth Compared to Peers
                                             Annual Loan Growth
                  60%
                                                           52%
                  50%
                                       47%
                  40%                            42%
                             33%
                  30%
    Growth Rate




                                                                                                TVB
                  20%                  14%                 15%
                                                13%               12%      10%
                  10%                                                                           Peers
                            10%                                    8%     9%           5%
                   0%
                  -10%
                                                                               -13%
                  -20%
                         Dec-03    Dec-04    Dec-05   Dec-06   Dec-07   Dec-08     Jun-09
                                                   Period Ended
    Source: UBPRs for TVB.

While TVB’s loan growth through 2006 was more aggressive and, therefore, riskier than
its peers, TVB’s Board and management maintained the bank’s capital at levels that were
below those levels of its peers, as discussed in more detail in the Implementation of PCA
section of this report. At the February 2006 examination, although the bank was Well

5
  Unless otherwise noted in this report, references to examination and visitation dates will refer to the
month and year of the examination or visitation start dates.
6
  Commercial banks are assigned to one of 25 peer groups based on asset size and other criteria. From
September 30, 2006 through 2009, TVB’s peer group was all insured commercial banks having assets
between $1 billion and $3 billion. Prior to that, TVB’s peer group was all insured commercial banks with
assets between $300 million and $1 billion.
7
  The majority of the bank’s rapid asset growth occurred before TVB converted to a state nonmember bank
and the FDIC became the bank’s primary regulator in August 2006.

                                                       4
Capitalized, by definition, examiners concluded that the bank’s capital levels were not
commensurate with the risk associated with its loan strategy.

Much of the bank’s loan growth focused on CRE lending, in general, and higher-risk
ADC loans, in particular. As shown in Figure 2, the percent of TVB’s ADC loans to
average gross loans was consistently and significantly above the average for its peers.

Figure 2: TVB’s ADC Loans as a Percent of Average Gross Loans Compared to
          Peers
          ADC Loans to Average Gross Loans




                                             60%
                                                                 45.19%      50.79%       49.42%
                                             50%
                                                                                                   44.87%
                                                    34.40%
                                             40%                                                                     TVB
                                                                                                            36.36%
                                             30%                                                                     Peers

                                             20%                             16.79%   18.52%       18.03%
                                                                 12.72%
                                                                                                        15.82%
                                             10%       9.98%
                                             0%
                                                   Dec-04      Dec-05     Dec-06   Dec-07     Dec-08    Jun-09
                                                                           Period Ended


Source: UBPRs for TVB.

Although the bank’s overall loan growth slowed significantly beginning in 2007, as
shown in Figure 1, TVB’s Board and management failed to heed local and national
economic signals and continued to originate speculative construction loans through mid-
2008. Ultimately, ADC loans represented a majority of the loans subsequently charged-
off or adversely classified, resulting in significant losses for the bank. Between
December 2007 and December 2008, TVB’s net income had decreased from $17 million
to a negative $57 million. During the first half of 2009, earnings declined to a negative
$73 million.

Dominant Official

Examiners and external auditors reported concerns regarding the influence that a former
bank director and senior management official (Senior Official) had on the actions of the
Board and bank operations. Specifically, the examiners and auditors concluded that the
Senior Official’s influence was a contributory factor in TVB’s pursuit of high-risk
business strategies and inadequate risk management practices. The December 2008
visitation and March 2009 examination reports noted various imprudent business
practices that Board members and executive officers attributed to the Senior Official.
Those practices included, but were not limited to:

      hindering communication between the Board and other executive officers;




                                                                              5
      pressuring TVB’s Board and management to make lending and compensation-
       related decisions that may not have been in the best interest of the bank;

      inadequately supervising lending units, prompting a "silo'' organization structure
       where most units and the Appraisal Department reported to the Senior Official
       instead of the Chief Credit Officer; and

      refusing to charge off confirmed losses on collateral-dependent loans and other
       real estate and failing to implement an adequate ALLL methodology and
       adequately fund the ALLL.

The December 2008 visitation report also noted the Senior Official’s aggressive
expansion of the SBA loan portfolio, funded with potentially volatile sources, in direct
contrast to concerns expressed by members of bank management related to the economic
slowdown and their uneasiness with having to rely on brokered deposits to fund this
expansion.

In addition, TVB’s external auditor concluded that the Senior Official suppressed
important Board discussions. As noted in Bancorp’s December 31, 2008 Annual Report,
the external auditor identified inadequate Board and management oversight as a material
internal control weakness due to inadequate documentation of strategic decision–making
in Board minutes. Further, the March 2009 examination report concluded that the lack of
independent Board supervision during the Senior Official’s tenure contributed to the bank’s
unsatisfactory condition. Notwithstanding, examiners also concluded that other Board
members and management (1) were not entirely absolved of their responsibilities for the
resulting condition of the bank and (2) had accepted the Senior Officer’s business plan
and strategy for uncontrolled asset growth in higher-risk construction and SBA lending,
funded by potentially volatile liabilities.

CRE and ADC Loan Concentrations

As noted in Figure 3, TVB pursued a lending strategy that was predominately focused on
CRE and ADC loans, with a significant portion of the ADC portfolio concentrated in
1-4 family residential construction. Between December 2005 and December 2006, TVB
substantially increased total CRE and ADC loans, with ADC loans accounting for more
than 50 percent of the bank’s total CRE loans during that period. TVB’s overall growth
in CRE lending continued through 2008, although management reduced the ADC
portfolio by almost $40 million by December 31, 2008. By June 30, 2009, the ADC
loans, which were mostly speculative in nature, had continued to decrease, but those
loans still comprised approximately 32 percent of the bank’s loan portfolio.




                                             6
Figure 3: TVB’s Loan Portfolio Composition and Growth
                                                                                              $1,380
                                                 Commercial and Other
                                        $1,400                           $1,144    $1,238                 $1,192
                                                 Other CRE Loans
    Gross Loans and Leases (Millions)
                                                                                             $154
                                        $1,200   ADC Loans                          $133
                                                                         $117                           $149
                                        $1,000               $753
                                                                                    $518     $679
                                         $800                            $459
                                                  $530        $75                                       $656
                                         $600                $296
                                                   $57
                                         $400     $271
                                                                         $568       $587     $547
                                         $200                $382                                       $387
                                                  $202
                                           $0
                                                 Dec-04    Dec-05       Dec-06    Dec-07    Dec-08     Jun-09
                                                                          Period Ended


Source: OIG analysis of Consolidated Reports of Condition and Income (Call Reports) for TVB.

TVB’s CRE lending strategy was initially profitable. Prior to 2008, high interest rates on
the bank’s CRE and ADC loans (generally based on the Wall Street Journal Prime Rate)8
fueled a lucrative net interest margin and return on assets well above its peers. However,
as discussed in Financial Institution Letter (FIL)-104-2006, entitled, Guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices,
dated December 12, 2006, rising CRE concentrations can expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general
CRE market. Despite evidence of weakening in the California housing market in 2007,
the bank continued to originate speculative construction loans through mid-2008. By the
March 2009 examination, which was based on December 31, 2008 financial data, the
bank’s non-owner occupied CRE totaled 1,153 percent of Total Capital, a significant
increase from the already high rate of 603 percent 1 year earlier. Examiners concluded
that this increase was primarily due to a significant decline in capital due to loan losses.

According to FIL-110-98, dated October 8, 1998, entitled, Internal and Regulatory
Guidelines for Managing Risks Associated with Acquisition, Development, and
Construction Lending, ADC lending is a highly specialized field with inherent risks that
must be managed and controlled to ensure that the activity remains profitable. In
addition, according to the Guidance on Concentrations in Commercial Real Estate
Lending, Sound Risk Management Practices, CRE loan concentrations can pose
substantial potential risks and inflict large losses on institutions. Therefore, risk
management practices and capital levels should be commensurate with the level and
nature of the CRE loan concentration risk. Although the guidance does not specifically
limit a bank’s CRE and ADC lending, it states that financial institutions with (1) ADC
loans representing 100 percent or more of Total Capital, or (2) total CRE loans
representing 300 percent or more of the institution’s Total Capital, where the outstanding
8
 The Wall Street Journal Prime Rate is the base rate on corporate loans posted by at least 70 percent of the
10 largest U.S. banks.

                                                                           7
balance of the institution’s CRE loan portfolio has increased by 50 percent or more
during the prior 36 months, may warrant greater supervisory scrutiny.

On October 12, 2006, during the FDIC’s initial visitation of TVB, bank management
informed the FDIC that TVB (1) was aware of the proposed guidance on CRE loan
concentrations and (2) had “modeled” the bank’s requirements in order to be prepared
when the guidance became final. However, TVB’s CRE and ADC loan concentrations at
the April 2007 and all subsequent examinations remained significantly higher than the
300 percent and 100 percent supervisory criteria, respectively, as well as the bank’s peer
group averages. Figure 4 highlights TVB’s ADC loan concentrations in relation to the
bank’s peer group.

Figure 4: TVB’s ADC Loan Concentration to Total Capital Compared to Peers
                                   1200%
                                                                                                  1022%
      ADC Loans to Total Capital




                                   1000%

                                   800%

                                   600%                                                                    TVB
                                                                                         491%
                                                         413%                                              Peers
                                                                    390%
                                   400%
                                           297%                                  379%
                                   200%
                                                                                                    116%
                                               81%       104%      136%         147%      139%
                                     0%
                                           Dec-04    Dec-05     Dec-06       Dec-07     Dec-08   Jun-09
                                                                  Period Ended

 Source: UBPRs for TVB.
 Note: The sharp increase in the ADC loan concentration ratio in 2009 resulted from a decline in TVB’s
 capital as a result of loan loss provisions, rather than growth in ADC lending.

Credit Risk Management Practices

TVB failed to develop, implement, and sustain an adequate credit risk management
framework commensurate with the inherent risks associated with its CRE and ADC
concentrations. According to the Guidance on Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, strong risk management practices are
important elements of a sound CRE lending program, particularly when an institution has
a concentration in CRE loans. The guidance also states that financial institutions with
CRE concentrations should ensure that risk management practices appropriate to the size
of the portfolio, as well as the level and nature of concentrations, and the associated risk
to the institution are implemented. Further, financial institutions should establish a risk
management framework that effectively identifies, monitors, and controls CRE
concentration risk.

The February 2006, April 2007, and April 2008 examinations generally found credit risk
management practices, including loan underwriting and credit administration, to be
adequate. However, weak credit risk management practices in 2008 and 2009 led to

                                                                         8
difficulties in resolving problem credits and monitoring and managing rapidly increasing
troubled loan and other real estate assets. For example:

       The December 2008 visitation noted that TVB’s overall management of the credit
        function needed improvement. Weaknesses in loan grading persisted, and
        examiners found additional weaknesses related to the external loan review
        program, the maintenance of current collateral values on problem assets, and the
        problem loan management function.

       The March 2009 examination noted that TVB needed to (1) devote additional
        resources to problem loan management, including improvements to the problem
        loan reporting system; (2) identify loan downgrades in a timely manner; and
        (3) ensure that updated appraisals were obtained on a consistent basis.

Allowance for Loan and Lease Losses

The February 2006 and April 2007 examinations concluded that TVB’s ALLL
methodology and balance were sufficient. By 2008, additional provisions to the ALLL
were required as TVB’s loan portfolio deteriorated and adverse classifications increased.
Beginning with, and continuing after, the April 2008 examination, examiners and
external auditors identified deficiencies with TVB’s ALLL methodology and funding and
made recommendations for the bank to substantially increase the ALLL. Table 2
provides information on TVB’s adversely classified items and ALLL funding.

 Table 2: TVB’s Adversely Classified Items and ALLL

                                               Examination and Visitation Start Dates
                                Feb 27-06       Apr 09-07      Apr 21-08    Dec 01-08   Mar 02-09

                                                         (Dollars in Thousands)
 Total Adversely
                                  $4,942         $30,666       $103,476     $175,942    $328,135
 Classified Items
 Adversely Classified
 Items as a Percent of            5.30%          21.05%         60.86%      104.09%     244.16%
 Tier 1 Capital plus ALLL
 TVB’s ALLL Funding               $9,039         $12,522        $16,969      $20,069     $51,537
 Increase in ALLL
                                    -0-            -0-          $2,480            -0-    $23,000
 Computed by Examiners
 Source: Examination and visitation reports.

In addition, at both the April 2008 examination and December 2008 visitation, examiners
cited TVB for an apparent contravention of the interagency 2006 Policy Statement on




                                                   9
Allowance for Loan and Lease Losses9 because the bank’s ALLL methodology did not
meet policy requirements. The March 2009 examination noted that the bank’s ALLL
methodology and balance were generally appropriate as of December 31, 2008, due to the
$33.8 million increase to the ALLL that TVB made based on concerns expressed by the
bank’s external auditors. However, as indicated in Table 2, examiners estimated that an
additional provision of $23 million was needed as of March 2009 to replenish the ALLL,
due to high loan losses incurred in the first quarter of 2009. TVB subsequently recorded
a provision of $22.5 million, which increased the ALLL to $55.9 million. As of June 30,
2009, just prior to failure, TVB’s ALLL totaled $50.8 million and represented
4.26 percent of total loans, compared to a 1.8 percent ratio for the bank’s peer group.

Liquidity Management and Contingency Planning

TVB primarily financed the CRE and ADC concentrations with potentially volatile
funding sources, including large time deposits of $100,000 or greater and brokered
deposits. In addition, TVB was overly reliant on SBA loan sales for liquidity, and failed
to develop and implement a comprehensive contingency liquidity plan (CLP) to assist the
bank in planning for alternative sources of funding.

Reliance on Potentially Volatile Funding Sources

Although TVB’s reliance on potentially volatile funding sources was not a primary cause
of the bank’s failure, as indicated in Table 3, TVB’s reliance on large time deposits was
significant from December 2004 through June 2009, nearly doubling from $240 million
in December 2005 to $410 million in December 2006. TVB’s reliance on brokered
deposits, which began in 2006, almost doubled between December 2006 to December
2007, from $47 million to $88 million, respectively. According to the Examination
Manual, such funding sources present potential risks, such as higher costs and increased
volatility.

    Table 3: TVB’s Level of Large Time Deposits and Brokered Deposits
     Potentially Volatile
                              Dec-04        Dec-05         Dec-06       Dec-07       Dec-08       Jun-09
         Funding
                                                          (Dollars in Millions)
      Time Deposits of
                               $145          $240           $410         $400         $313         $317
      $100,000 or More
      Brokered Deposits         $0            $0             $47          $88         $361         $277
    Source: UBPRs for TVB.

At the March 2009 examination, examiners noted that brokered deposits were
instrumental in fueling TVB’s asset growth in 2008. The brokered deposits had increased
from $88 million in December 2007 to $361 million in December 2008, a 310 percent
9
  This policy statement reiterates key concepts and requirements included in Generally Accepted
Accounting Principles and existing supervisory guidance for maintaining the ALLL at an appropriate level.
The policy statement requires an institution to maintain an appropriate ALLL level, discusses items that
need to be addressed in written policies and procedures, and describes methodologies that institutions need
to use to determine an appropriate level.

                                                     10
increase, which placed the bank in the 90th percentile relative to peers. During that
period, SBA and construction loans increased by $142 million.

The Examination Manual states that the net non-core funding dependence ratio is a key
measure of the degree to which the bank relies on potentially volatile liabilities, such as,
but not limited to, certificates of deposit over $100,000 and brokered deposits to fund
long-term earning assets. Placing heavy reliance on potentially volatile funding sources
to support asset growth is risky because access to these funds may become limited in
times of financial stress or adverse changes in market conditions. Generally, the lower
the dependence ratio, the less risk exposure there is for the bank. As noted in Table 4,
TVB’s net non-core funding dependence ratio consistently exceeded that of its peers from
December 2004 to June 2009.

 Table 4: TVB’s Net Non-Core Funding Dependence Ratio Compared to Peers
                   Dec-04     Dec-05      Dec-06     Dec-07     Dec-08       Jun-09
                                             (Percentages)
      TVB            24          32         35        39           56           48
      Peers          21          22         27        29           35           31
 Source: UBPRs for TVB.

Significant loan-related losses deteriorated TVB’s financial condition and capital
position, and ultimately limited the bank’s access to certain potentially volatile funding
sources. Specifically, the March 2009 examination noted that restrictions on TVB’s
Federal Home Loan Bank (FHLB) and Federal Reserve Bank (FRB) Discount Window
borrowings, in conjunction with a freeze in the market for SBA loan sales in late 2008
and subsequent limits on brokered deposits, created significant liquidity concerns for the
bank. In addition, as TVB’s capital position deteriorated, its access to brokered deposits
was restricted based on section 29 of the FDI Act and Part 337 of the FDIC Rules and
Regulations, as discussed later in this report.

SBA Loan Growth

During 2008, TVB’s Board and management continued to emphasize growth in SBA
lending in spite of: a need to preserve capital, unsatisfactory liquidity, and a notable
reduction in sales activity in the secondary market for SBA 504 loans. Bank
management justified this growth to (1) diversify the loan portfolio, (2) generate
consistent interest income, and (3) provide liquidity through SBA loan sales. TVB
officials also stated that the growth in SBA loans should not require additional funding,
but instead be supported by reductions in construction and other loan originations.
However, much of the growth was ultimately funded through brokered deposits, upon
which restrictions were subsequently placed due to TVB’s declining capital position and
related loan losses. These restrictions, in conjunction with a substantial decline in the
market for SBA loan sales in late 2008, led to significant liquidity concerns for TVB in
early 2009.




                                            11
Contingency Liquidity Planning

Examiners continually expressed concerns regarding TVB’s CLP; however, bank
management failed to develop one that was adequate. A comprehensive CLP can assist
in projecting liquidity needs and planning for viable sources of liquidity as the bank’s
financial condition begins to deteriorate and applicable restrictions to funding sources
become imminent. Institutions that use non-core funding, brokered deposits, and other
high-rate funding strategies should ensure that their CLPs address relevant stress events.
Examiners during the April 2008 examination criticized TVB’s CLP for its lack of:

        a strategy for maintaining adequate liquidity if the secondary market for SBA
         504 loans ceases to provide a reliable or timely source of liquidity;

        an exit strategy from the business line of originating and selling SBA 504 loans,
         or ability to identify permanent funding to maintain the loans on the balance sheet
         without impacting liquidity, should the secondary market for the loans diminish;
         and

        a plan for the use of brokered deposits and alternative sources should brokered
         deposits become restricted.

The need for a comprehensive CLP became further pronounced by December 2008, when
brokered deposits alone comprised almost 28 percent of total deposits, nearly 3 times the
level of the bank’s peer group and remained at almost 3 times that of its peers in June
2009. This represented a substantial increase in TVB’s level of brokered deposits at a
time when the bank’s financial condition was declining due to increases in adversely
classified assets, which led to decreases in capital and subsequent restrictions on liquidity
sources. By the March 2009 examination, TVB had revised its CLP to address
examiners’ concerns. However, the bank’s actions were not timely or effective, as
examiners concluded that TVB’s liquidity position was tenuous, and contingency
liquidity sources were inadequate.


The FDIC’s Supervision of TVB
From August 2006 until the bank failed in July 2009, the FDIC, in conjunction with the
CDFI, provided ongoing supervision of TVB through three on-site risk management
examinations and three visitations. The FDIC also conducted offsite reviews and other
offsite monitoring activities through it Relationship Manager10 (RM) Program. Through
its supervisory efforts, the FDIC identified risks in TVB’s operations and brought these

10
  An RM serves as the designated local point-of-contact for the respective institutions in their assigned
portfolio. The RM also monitors and participates in supervisory activities, develops supervisory plans, and
ensures that information on the financial institution is updated as appropriate. The supervisory plan
identifies anticipated monitoring needs and examination plans for the risk management examination cycle,
based on risk or staffing considerations. RM contacts enable the FDIC regional offices to identify current
and prospective issues that impact the risk profile or overall condition of financial institutions.

                                                    12
risks to the attention of the bank’s Board and management through examination reports
and other correspondence. Such risks included the bank’s significant concentration in
CRE loans, including ADC loans; weaknesses in credit risk management practices related
to credit administration and the ALLL; and excessive reliance on potentially volatile
funding sources. Examiners also reported apparent violations of regulations and
contraventions of interagency policy associated with the institution’s lending practices.
In addition, examiners performed procedures to determine whether the bank had taken
appropriate corrective action to address examiner recommendations, including those
made by the FRBSF examiners prior to the bank’s conversion to a state nonmember
bank, and developed additional recommendations when the bank’s corrective actions
were not adequate. The FDIC also pursued enforcement actions to correct problems
identified in the April 2008 examination and December 2008 visitation. The FDIC’s
supervisory approach to TVB was consistent with prevailing guidance and practices at
the time for a bank with TVB’s risk profile. However, a lesson learned would be that
earlier and greater supervisory attention to an institution like TVB is warranted, in light
of the significant risk associated with high CRE and ADC concentrations in a declining
real estate market, as identified by examiners in connection with the April 2007
examination and offsite monitoring conducted shortly thereafter.

Supervisory History

The FRBSF and the CDFI conducted an examination of TVB in February 2006, before
the bank converted to a state nonmember bank in August 2006. The FDIC and the CDFI
conducted joint examinations and visitations of TVB from October 2006 to March 2009.
Table 5 provides the supervisory history for TVB from 2006 to 2009, including
CAMELS11 component and composite ratings and enforcement actions taken.

Table 5: TVB’s Examination and Visitation History, 2006 to 2009
                                                        Supervisory
 Examination        Examination
                                        Agency            Ratings               Enforcement Action
  Start Date         as of Date
                                                          (UFIRS)
     02/27/2006     12/31/2005       FRBSF/CDFI          222123/2                        None
                                                            (3)a
     10/12/2006        Not            FDIC/CDFI             Not                          None
     (Visitation)   applicable                           applicable
     04/09/2007     12/31/2006        FDIC/CDFI          222133/2                      None
     04/21/2008     03/31/2008        FDIC/CDFI          333343/3          Memorandum of Understanding
                                                                                      (MOU),
                                                                           (Effective September 9, 2008)
                                                                            Problem Bank Designationb


11
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

                                                   13
                                                        Supervisory
 Examination       Examination
                                        Agency            Ratings                Enforcement Action
  Start Date        as of Date
                                                          (UFIRS)
  12/01/2008        09/30/2008        FDIC/CDFI          444444/4           Cease and Desist Order (C&D)
  (Visitation)                                                              (Effective February 12, 2009)
                                                                             Problem Bank Designation
  01/15/2009        01/13/2009        FDIC/CDFI          444454/5                  C&D continued
  (Visitation)                                                               Problem Bank Designation
  03/02/2009        12/31/2008        FDIC/CDFI          555555/5                  C&D continued
                                                                             Problem Bank Designation
 Source: Examination and visitation reports for TVB.
 a
   The FRBSF also issued a risk management rating of “3” or “fair” that was supplemental to the UFIRS ratings.
 b
   This designation required TVB to notify the FDIC in writing at least 30 days prior to certain management
 changes, including the addition or replacement of a Board member, or the employment or change in
 responsibilities of anyone who was, would become, or who performed the duties of a senior executive officer.


Examinations prior to 2006 were performed by the CDFI and the OCC. TVB generally
received UFIRS component and composite ratings of “2”or better for every examination
from inception through 2005, indicating that the bank gave no cause for supervisory
concern, and weaknesses identified were considered minor and correctable in the normal
course of business. The FRBSF and CDFI February 2006 examination rated
management and board supervision as “satisfactory” based on the overall sound financial
condition of the bank, but also concluded that the bank’s risk management practices were
“fair” because they had not kept pace with the bank’s rapid growth and therefore
reflected adversely on overall board and management oversight.

Visitations

In addition to three risk management examinations, the FDIC and the CDFI conducted
three visitations at TVB, summarized below.

October 2006. The FDIC and the CDFI conducted an initial visitation after TVB
converted from a Federal Reserve member bank to a state nonmember bank to assess the
primary areas of risk. Examiners and TVB management also discussed the bank’s CRE
and ADC concentrations, examiner expectations for a CLP, the bank’s SBA lending, and
the proposed Guidance on Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices. The meeting also served to facilitate planning for the joint
FDIC and CDFI examination scheduled for the second quarter of 2007, and to assess the
bank’s progress in implementing recommendations made as a result of the FRBSF and
the CDFI’s February 2006 examination.

December 2008. The purpose of the visitation was to follow up on the April 2008
examination results, validate TVB’s financial condition as part of its Troubled Asset
Relief Program (TARP) application, determine possible effects of negative publicity
about the bank, and assess corrective actions that TVB had implemented or planned to
take in response to the September 2008 MOU. The FDIC and the CDFI determined that
the bank’s condition had continued to deteriorate and was considered to be

                                                   14
unsatisfactory, due to distressed asset quality and an increased volume of problem loans,
weaknesses in the ALLL, and deficient earnings and capital. Accordingly, all of the
bank’s component ratings and the composite rating were rated as “4,” indicating serious
financial or managerial deficiencies and unsatisfactory performance.

January 2009. The visitation focused on the bank’s liquidity position and determined
that the bank’s (1) financial condition had continued to deteriorate and (2) liquidity levels
were critically deficient and threatened the near-term viability of the institution.
Examiners also reminded TVB that once an FDIC- and CDFI-proposed C&D was in
effect, TVB’s capital category would be reclassified to Adequately Capitalized and the
appropriate restrictions according to section 38 of the FDI Act would become applicable.
In addition, TVB’s access to other non-core funding sources, including FHLB and FRB
borrowings, had been reduced. Examiners concluded that TVB was operating in an
unsafe and unsound condition and needed to quickly improve the bank’s deteriorating
financial condition. The FDIC and the CDFI adjusted the bank’s liquidity and composite
ratings each to a “5,” resulting in a CAMELS rating of 444454/5.

Offsite Reviews

FDIC examiners also conducted two offsite reviews of TVB during July 2008 and
October 2008. Those reviews indicated that there was a probability of downgrades in
TVB’s component ratings—capital, asset quality, management, and earnings—and/or the
overall composite rating. FDIC concerns were based on the bank’s deteriorating capital
levels, weakened asset quality, poor liquidity, deteriorating earnings and/or the downturn
in the California real estate markets. Subsequently, TVB’s component and composite
ratings were downgraded at the December 2008 visitation, with additional downgrades
occurring at the January 2009 visitation and March 2009 full-scope examination.

Supervisory Actions

The FDIC and the CDFI took various supervisory actions, including making
recommendations and taking informal and formal enforcement actions, to address risk
management concerns pertaining to the bank’s operations, as noted below.

April 2007 Examination. The FDIC and the CDFI examiners followed up on the
recommendations made by the FRBSF and the CDFI in 2006 and concluded that
although TVB had made efforts to address prior recommendations, repeat
recommendations related to liquidity were needed. Specifically, TVB needed to establish
appropriate risk limits for managing potentially volatile funding sources and develop an
adequate CLP. Examiners also noted that TVB had established significantly high
tolerance levels for CRE and ADC lending, and recommended that the bank develop a
contingency plan for the ADC concentration and a prudent limit for the aggregate CRE
concentration that did not include owner-occupied properties.

April 2008 Examination. Examiners considered management less than satisfactory,
citing the Board and management’s strategy of focusing on construction lending while
maintaining minimal liquid assets and the decision to increase speculative residential

                                             15
construction lending at a time when the residential real estate markets were weakening.
Examiners concluded that TVB’s capital was less than satisfactory due, in part, to
significant increases in adverse classifications, declining earnings, and the declining
ability of the holding company to inject capital. Examiners also warned TVB about the
risks inherent in its continued reliance on potentially volatile funding sources, as well as
SBA 504 loan sales, for liquidity. Examiners recommended that TVB thoroughly
evaluate the risks related to the size of the bank’s ADC loan portfolio, and update its CLP
to address contingencies related to the market for SBA loan sales and the use of brokered
deposits.

September 2008 MOU. DSC collaborated with the CDFI to determine the appropriate
ratings for TVB as a result of the April 2008 examination and to enter into an MOU with
TVB in September 2008. Discussions between DSC and the CDFI regarding downgrades
in TVB’s ratings and conclusions about the ALLL impacted the timeliness of the
examination report and the MOU. When issued, the MOU included 10 provisions related
to asset quality and concentrations of credit; strategic and capital planning; the ALLL;
liquidity management, reliance on non-core funding, and the bank’s CLP; and sensitivity
to market risk.

In December 2008, examiners followed up on compliance with the MOU. The examiners
concluded that the bank’s condition was unsatisfactory and that actions taken by TVB in
response to the MOU did not appear to have adequately addressed the provisions related
to classified assets, concentrations of credit, ALLL provisions, and liquidity. Examiners
informed TVB’s Board that, as a result, a C&D would be forwarded to the institution.

February 2009 C&D. The FDIC and the CDFI jointly issued a C&D to TVB that
contained provisions related to:

      Board participation and qualified management;
      asset quality, CRE concentrations, and the ALLL;
      strategic, profit, and capital planning and cash dividends; and
      liquidity and funds management, including brokered deposits.

March 2009 Examination. Examiners determined that TVB was operating in an unsafe
and unsound condition and that the bank’s performance was deemed to be critically
deficient due to continued deterioration in the bank’s asset quality, liquidity levels,
earnings, and capital position. Examiners recommended that TVB take aggressive action
to reduce CRE and ADC loan concentrations and improve management of problem loans.
Regarding liquidity, management was asked to establish an action plan, clarify policy
limits, and improve the brokered deposits reduction plan.

Supervisory Response to Risks Identified at TVB

During its 3-year supervision of TVB, the FDIC, in conjunction with the CDFI,
implemented a supervisory strategy that included annual examinations, visitations,
examiner recommendations, rating downgrades, and formal and informal actions.
Examination and visitation reports for TVB indicated that the FDIC and CDFI examiners
                                            16
identified concerns and made recommendations related to the risks associated with
TVB’s (1) Board and management planning and oversight, (2) CRE and ADC loan
concentrations, (3) credit risk management practices, (4) the ALLL, and (5) liquidity
management and contingency planning. In addition, an MOU and C&D were issued with
provisions that also addressed those risks. With regard to Board and management
oversight, concerns regarding the bank’s dominant official, whose influence played a role
in the bank’s failure, were not evident to examiners until the December 2008 visitation.
We did determine, however, that earlier and greater supervisory attention to TVB may
have been warranted, in light of the significant risk associated with the bank’s high CRE
and ADC concentrations in a declining real estate market, as identified by examiners in
connection with the April 2007 examination and offsite monitoring conducted shortly
thereafter.

Examination Coverage of the Dominant Official

The December 2008 visitation report concluded that TVB Board and management
oversight was deficient, in part because of the Board’s acceptance of the dominant
influence and imprudent business decisions of the Senior Official, which contributed to
the deterioration of the bank. None of the examinations conducted between 2006 and
December 2008 concluded that TVB had a dominant or highly influential official.

The February 2006 examination, which was conducted by the FRBSF and the CDFI, did
not report any concerns regarding whether the bank was susceptible to dominant
influence or concentration of authority and concluded that management and board
supervision was satisfactory. In addition, the April 2007 and April 2008 examination
reports specifically indicated that TVB did not have a dominant officer or policy maker.

Examination procedures that may identify a dominant official include review of Board
and committee minutes and Board packages. Although we found evidence that
examiners performed these procedures during the April 2007 and April 2008
examinations, such review did not identify any recorded concerns from other Board
members or bank management regarding a dominant official. In addition, examiners
stated that Board members and senior bank management did not express any
disagreement with the Senior Official over strategic decisions and/or the direction of the
bank during those examinations. In December 2008, the Chairman of TVB’s Board told
examiners that there were heated discussions and disagreements with the Senior Official
during Board meetings, but these issues were not captured in the Board minutes.

Examiners subsequently noted that it was difficult to identify the negative impact of the
Senior Official’s influence until after the official had left TVB during December 2008.
Prior to that point, it appears that TVB’s Board and management supported the Senior
Official and did not express any concerns to examiners about the decisions made and
actions taken by the Senior Official. Both the April 2007 and April 2008 examination
reports state that examiners extended an invitation through the Senior Official for TVB’s
directors to attend examination meetings or meet with examiners; however, these reports
indicate that none of the outside directors met with examiners during those examinations.


                                            17
Supervisory Strategy – CRE and ADC Loan Concentrations

TVB’s rapid growth resulted in a higher-risk profile for the institution and resulted in
CRE and ADC loan concentrations that consistently and significantly exceeded
supervisory guidelines and the bank’s peer group averages.

April 2007 Pre-Examination Planning Memorandum. The memorandum noted the
risks identified by the FRBSF and CDFI 2006 examination of TVB, including a CRE
concentration that was 733 percent of Total Capital, largely comprised of ADC loans
representing 413 percent of Total Capital. By year-end 2006, the CRE concentration
remained high, with ADC loans comprising 50 percent of the total loan portfolio. The
memorandum indicated that special emphasis would be placed on the review of
speculative construction loans in view of the real estate market slowdown and on the
management of the CRE concentration. An additional indicator that TVB had a high-risk
profile was the bank’s Real Estate Stress Test (REST)12 score, which was “5” due to the
bank’s high volume of CRE and ADC loans—indicating the highest level of exposure to
potential market deterioration. Accordingly, examiners concluded that TVB’s
monitoring of concentrations of credit was considered to be a high-risk area and would be
targeted during the April 2007 examination.

April 2007 Examination. Examiners performed a targeted review of the bank’s CRE
and ADC concentrations. Although TVB’s CRE and ADC concentrations substantially
exceeded the parameters included in the 2006 guidance and presented substantial risk to
the institution, examiners’ decisions regarding the supervisory approach for TVB may
have been influenced, in part, by examiner conclusions that TVB’s (1) underwriting was
conservative and concentration monitoring reports were extensive, (2) asset quality was
satisfactory based on the level of adverse classifications, (3) 2006 earnings were
satisfactory, and (4) capital levels had increased in 2006.

The April 2007 examination noted CRE loans comprised 94 percent of the bank’s loan
portfolio and CRE and ADC loan concentrations substantially exceeded the supervisory
criteria in the Guidance on Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices. Specifically,

        non-owner occupied CRE totaled 541 percent of Total Capital; and since 2003,
         TVB’s level of CRE loans had increased by approximately 230 percent, which
         was well in excess of the supervisory criteria of 50 percent over a 36-month
         period; and

12
   REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the early 1990s. Risk factors include the ratio of construction and
development loans to total assets, high non-core funding, and rapid asset growth. Other risk factors are
based on the bank’s percentage of CRE loans, multifamily loans, and commercial and industrial loans. A
bank with a high concentration in ADC loans, coupled with rapid asset growth, would appear to be riskier
than a bank with similar concentrations but low asset growth. REST uses statistical techniques and Call
Report data to forecast an institution’s condition over a 3- to 5-year period and provides a single rating
from 1 to 5, with a rating of 5 indicating the highest risk.


                                                    18
       the ADC concentration totaled 445 percent of Total Capital.

Examiners also concluded that the risk in the construction portfolio was elevated due to
the (1) size of the portfolio in relation to Total Capital, (2) emphasis on residential
construction at a time when the residential market was slowing and included a significant
volume of speculative lending, and (3) exposure to the Southern California market, which
had experienced a rapid escalation in prices. Further, the possibility of TVB increasing
its level of CRE loan concentration was evident as the bank’s concentration-related
guidelines allowed for a high volume of construction, non-construction CRE, and
speculative lending, with a combined limit for all CRE at 1,000 percent of Tier 1 Capital.

Examiners made recommendations for TVB to develop a contingency plan to reduce the
ADC concentration in the event of adverse market conditions and to proactively reduce
ADC loan concentration limits as market conditions deteriorated. In addition, examiners
indicated that the advisory nature of the Guidance on Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices made it difficult for them to impose a
supervisory action requiring TVB to reduce the high levels of CRE and ADC
concentrations, prior to evidence of financial deterioration at the bank. According to the
2007 examination report:

       TVB’s ADC loan portfolio risk was mitigated by the bank’s reasonably
        conservative underwriting, an average loan-to-value ratio in the construction
        portfolio of 66 percent, and many projects being phased and detailed construction
        status reports being prepared to monitor the construction projects.

       Bank management continued to satisfactorily administer the bank’s affairs, as
        evidenced by satisfactory asset quality, with an adversely classified items ratio of
        only 21 percent, strong earnings performance, and capital levels.

       TVB’s capital levels, which had increased from the December 31, 2005 levels
        due to capital injections from the bank’s holding company, were satisfactory
        relative to the bank’s overall risk profile and elevated concentration risk.

Bank Contacts. Although TVB’s composite rating was a “2” at the April 2007
examination, examiners contacted TVB three times between the April 2007 and April
2008 examinations. According to DSC officials, (1) it is unusual for examiners to contact
“2”-rated institutions on such a frequent basis and (2) the contacts were an indication that
examiners were aware of TVB’s high-risk profile and closely monitoring the institution.
In our view, the information and perspective gained from these contacts could have
resulted in additional supervisory action and, possibly, further revision to the supervisory
strategy.

       June 2007. About 2 months after the start of the April 2007 examination, the RM
        contacted TVB to discuss concerns related to the bank’s ADC concentration. The
        RM:



                                            19
         o    identified indications of increased risk to TVB and concluded that due to a
              high volume of ADC loans, increasing asset classifications, and the softening
              real estate market, ongoing reviews of the bank’s ADC concentrations were
              warranted; and

         o    concluded that the bank’s risk level was “high”13 and recommended that DSC
              conduct a 6-month contact with TVB, focusing on various indicators for
              potentially deteriorating trends in the ADC portfolio to assist in determining
              whether a formal on-site visitation was needed.

Further, in August 2007, the RM developed the 2008 supervisory plan which noted that
the prior examination report included concerns about TVB’s monitoring of CRE
concentrations; however, the plan did not specifically address TVB’s ADC lending.
Additional bank contacts included the following.

        September 2007. The CDFI contacted TVB to discuss an increase in the bank’s
         delinquency ratio as of June 2007. The discussion, which was summarized by the
         RM in DSC correspondence, briefly noted the bank’s ADC lending. TVB
         indicated that in spite of some signs of weakness, the bank was comfortable with
         its ADC exposure and the portfolio was performing well. DSC officials stated
         that, although not captured in the documentation for the September 2007 contact,
         the FDIC and the CDFI decided against conducting an on-site visitation or
         acceleration of the next examination based on the bank’s financial trends and
         information provided by TVB.

        January 2008. The FDIC and the CDFI also met with TVB officials to obtain an
         overview of the bank and the actions taken to address the April 2007 examination
         concerns; however, DSC correspondence is not clear on what was discussed
         regarding the bank’s ADC lending.

Examiners subsequently evaluated the risks related to TVB’s CRE and ADC
concentrations during the April 2008 examination. However, by that time, significant
financial deterioration had occurred, and the bank’s high level of CRE and ADC loans
and continued growth in residential construction loans was of significant concern, given
the weakening residential real estate markets and rising level of adverse classifications,
loan losses, and other real estate owned.14 The April 2008 examination report
highlighted that:

        the overall CRE portfolio had declined as a percent of Total Capital since the
         prior examination; however, the level of non-owner occupied CRE and ADC
         loans to Total Capital still remained high, at 479 percent and 437 percent,
         respectively;


13
   The “high” risk level indicated that until corrected, TVB’s current or prospective exposures posed a risk
of loss to the bank’s earnings or capital that could materially impact TVB’s financial condition.
14
   Other real estate owned is real estate property acquired by a bank through, or in lieu of, loan foreclosure.

                                                      20
        the level of speculative residential construction loans had increased substantially,
         by $70 million (or 24 percent), from the last examination and represented
         224 percent of Total Capital; and

        the adversely classified items ratio had also increased significantly since the prior
         examination, from 21 percent to 61 percent. The majority of the classified loans
         were ADC loans, and most of those were speculative residential projects.

In addition, during the period between the April 2007 and April 2008 examinations, TVB
increased its brokered deposits, which were used to support asset growth, by more than
$40 million.15 As discussed earlier, the FDIC worked with TVB to enter into an MOU in
September 2008 to address the bank’s asset quality, CRE and ADC concentrations,
reliance on volatile funding sources, and other risks, based on the April 2008 examination
results discussed above. During its follow-up activities, DSC examiners determined that
TVB, ultimately, did not comply with many examiner recommendations and MOU
provisions. Although TVB subsequently curtailed its ADC lending in July 2008, by
2009, the majority of TVB’s adversely classified assets and charge-offs were related to
ADC loans.

As indicated previously, the RM considered TVB’s risk level to be “high,” and until
corrected, could impact the bank’s financial condition. However, DSC officials stated
that at that time, high concentrations in CRE and ADC were not reasons alone to change
their supervisory approach, including accelerating an examination or downgrading a
component rating. As a result, although the FDIC’s intervening offsite contacts with
TVB identified risks the bank was facing, those activities did not result in substantial
adjustments to the FDIC’s supervisory strategy for TVB.

In hindsight, earlier and greater supervisory attention to the higher-risk profile presented
by TVB’s CRE and ADC concentrations may have (1) been warranted before significant
deterioration in the bank’s financial condition had occurred and (2) better mitigated the
elevated risks at TVB.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not Adequately Capitalized.



15
  The April 2007 examination’s as of financial date was December 31, 2006, at which time TVB’s
brokered deposits totaled $47.2 million. The April 2008 examination’s as of financial date was March 31,
2008, at which TVB’s brokered deposits totaled $87.8 million, an increase of more than $40 million from
the bank’s December 31, 2006 amount.

                                                   21
Based on the supervisory actions taken for TVB, the FDIC implemented applicable PCA
provisions of section 38 of the FDI Act in the manner and timeframe required. However,
by the time the FDIC was required to implement the PCA provisions, the bank had
already been subject to an MOU and a C&D that required TVB to develop a plan to
significantly improve its capital position. TVB was categorized as Well Capitalized from
December 2006 through September 2008, as indicated in Table 6.

 Table 6: TVB’s Capital Ratios Relative to PCA Thresholds for Well Capitalized
          Banks
                                                    Dec      Dec      Sept     Dec     Mar      Jun
                                                     06       07       08      08a     09        09
                                   PCA                          TVB’s Capital Ratios
     Capital Category           Thresholds                        (Percentages)
 Tier 1 Leverage Capital         5% or more        11.16    10.48 10.04 6.03       4.00         1.42
 Tier 1 Risk-Based Capital       6% or more        10.23     9.51  9.73    6.25    4.14         1.59
 Total Risk-Based Capital       10% or more        11.20    10.66 10.98 7.52       5.43         2.87
 PCA Categoryb                       W              W         W     W       U       SU          CU
Source: Call Reports for TVB.
a
  The December 2008 ratios are based on TVB’s December 31, 2008 Call Report revised March 19, 2009.
b
  W–Well Capitalized, U–Undercapitalized, SU–Significantly Undercapitalized, CU–Critically
Undercapitalized.

At the February 2006 examination, FRBSF examiners highlighted the bank’s low level of
Total Risk-Based Capital in relation to its peers and rapid growth strategy, and
recommended that TVB increase its capital. FRBSF examiners emphasized that a bank
with substantial growth is expected to maintain a strong capital position substantially
above minimum supervisory levels. Although TVB received capital contributions from
its holding company in 2006 and 2008, TVB’s Board and management continued to
maintain the bank’s Total Risk-Based Capital below that of its peers as shown in Table 7.
As indicated previously in Figure 4, TVB’s ADC loan concentration ratios far exceeded
its peers.

Table 7: TVB’s Total Risk-Based Capital Ratio Compared to Peers
                       Dec-04      Dec-05       Dec-06       Dec-07       Dec-08       Jun-09
                                                   (Percentages)
 TVB                    11.72       10.82        11.20      10.66            7.52*       2.87
 Peers                  13.06       12.95        11.99      11.83            11.70      12.11
Source: UBPRs for TVB.
* The December 2008 ratio is based on TVB’s December 31, 2008 Call Report revised March 19, 2009.

TVB’s capital category was reduced from Well Capitalized to Adequately Capitalized on
February 12, 2009, the effective date of the C&D, which included capital-related
provisions that required TVB to (1) develop and adopt a plan to maintain Tier 1 Leverage
Capital above 10 percent and meet the minimum risk-based capital requirements
identified in FDIC Rules and Regulations Part 325, Appendix A and (2) obtain written
consent from the FDIC and the CDFI before paying any cash dividends.



                                                 22
TVB’s efforts to raise capital were impacted by the severe deterioration in the CRE and
ADC concentrations and the economic downturn. Although TVB submitted an
application for TARP funding on October 28, 2008, the application was subsequently
withdrawn. TVB’s access to brokered deposits was restricted in February 2009 as a
result of the C&D.16 A subsequent downgrade of TVB’s PCA category prohibited the
bank from obtaining additional brokered deposits when, on April 8, 2009, the FDIC
notified TVB that based on the bank’s December 31, 2008 Call Report, its PCA capital
category had fallen to Undercapitalized. Accordingly, TVB became subject to the
mandatory requirements of section 29 of the FDI Act, and was no longer eligible to
accept, renew, or roll over brokered deposits or receive a waiver to do so.17 In addition,
TVB became subject to the mandatory requirements of section 38 of the FDI Act, and
was (1) required to submit a capital restoration plan (CRP) and (2) subject to other
restrictions related to asset growth, acquisitions, new activities, new branches, payment
of dividends or management fees, or any other capital distributions. Other significant
events regarding TVB’s actions to address the bank’s capital were taken during 2009 that
included, but were not limited to, the following:

May 12, 2009. TVB submitted a CRP to raise $75 million. However, on June 12, 2009,
the FDIC informed TVB that the timeframe for raising the additional capital was not
acceptable and the assumptions and projections supporting the CRP were not reasonable.

May 28, 2009. The FDIC notified TVB that the bank’s capital category had fallen to
Significantly Undercapitalized based on the March 31, 2009 Call Report and required
TVB to provide information on actions planned or already taken to comply with the
mandatory restrictions required under section 38 of the FDI Act.

June 15, 2009. The FDIC issued a PCA Directive that required TVB to, among other
things, recapitalize through the sale of either bank stock or the bank.

June 26, 2009. TVB submitted a revised plan to obtain $76 million in new capital for the
bank and $54 million for the bank’s holding company. The FDIC subsequently informed
TVB that the revised CRP was inadequate because the bank’s proposal for obtaining the
capital was not realistic and the capital projections failed to achieve the level of capital
required under the C&D or other regulatory directives.

Subsequently, on July 17, 2009, the CDFI closed TVB due to the bank’s severely
deteriorated financial condition and the bank’s inability to raise capital at the required
level, and named the FDIC as receiver.



16
   Under FDIC Rules and Regulations, Part 337, Unsafe and Unsound Banking Practices, an institution
subject to an enforcement order may not accept, renew, or roll over any brokered deposits. However, if the
institution is not Undercapitalized, as defined in Part 325 of the FDIC Rules and Regulations, it may
request a waiver of these restrictions from the FDIC.
17
   Examiners for the March 2009 examination concluded that TVB had an inadvertent apparent violation of
Part 337.6 of the FDIC Rules and Regulations because it was operating under the belief that the bank’s
capital category was Adequately Capitalized.

                                                   23
Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On February 12, 2010, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of TVB’s failure. In addition,
DSC stated that the rapid deterioration of local California real estate markets resulted in
increased delinquencies and non-performing assets. Regarding our assessment of the
FDIC’s supervision, DSC stated that the FDIC and the CDFI jointly conducted three full-
scope examinations and three visitations from 2006 to 2009. DSC also conducted offsite
reviews and other offsite monitoring activities during this period. Further, DSC stated
that it recognizes that strong supervisory attention is necessary for institutions with high
CRE/ADC concentrations and volatile funding sources, such as TVB, and has issued
updated guidance reminding examiners to take appropriate action when these risks are
imprudently managed.




                                            24
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from September 2009 to February 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of TVB’s operations from December 31,
2003 until its failure on July 17, 2009. Our review also entailed an evaluation of the
regulatory supervision of the bank from August 23, 2006, the date that FDIC effectively
became the primary regulator of TVB, until the bank failed.

To achieve the objectives, we performed the following procedures and techniques:

      Analyzed examination and visitation reports issued by the FDIC and the CDFI
       from 2006 to 2009.

      Reviewed the following:

       o   Available work papers for FDIC examinations and correspondence maintained
           at DSC’s San Francisco Regional Office and Orange County Field Office in
           California.

       o   The February 2006 FRBSF examination report and correspondence related to
           TVB’s withdrawal from the Federal Reserve System to become a nonmember
           bank regulated by the FDIC in August 2006.

       o   Reports prepared by the Division of Resolutions and Receiverships (DRR)
           and DSC relating to the bank’s closure. We also reviewed selected failed

                                             25
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

           bank records maintained by DRR in Irvine, California, for information that
           would provide insight into the bank's failure.

       o   Audit Reports prepared by the bank’s external auditor, Crowe Horwath LLP,
           (formerly Crowe Chizek).

       o   Pertinent DSC policies and procedures and various banking laws and
           regulations.

       o   Actions that DSC implemented to comply with (1) provisions of section 29
           and the FDIC Rules and Regulations, Part 337, Unsafe and Unsound Banking
           Practices restricting TVB’s use of brokered deposits and (2) section 38 of the
           FDI Act, including, but not limited to, issuing PCA notification letters and a
           PCA Directive, and restricting the bank’s growth and payment of dividends,
           when applicable, based on the bank’s capital category.

      Interviewed the following FDIC officials:

       o   DSC officials in Washington, D.C. and the San Francisco Regional Office.

       o   FDIC examiners from the DSC Orange County Field Office, who participated
           in examinations, visitations, or reviews of examinations of TVB.

       o   DRR officials at the FDIC Irvine office.

      Met with an official from the CDFI to discuss the historical perspective of the
       institution, its examinations, and other activities regarding the state's supervision
       of the bank.

We performed the audit field work at the OIG offices in Dallas, Texas and Arlington,
Virginia and the DSC regional office in San Francisco.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in FDIC systems, reports, and
interviews of examiners to understand TVB’s management controls pertaining to causes
of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and

                                             26
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           27
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured state nonmember bank pursuant to the
                    FDI Act. These reports are used to calculate deposit insurance
                    assessments and monitor the condition, performance, and risk profile of
                    individual banks and the banking industry.
Cease and           A C&D is a formal enforcement action issued by a financial institution
Desist Order        regulator to a bank or affiliated party to stop unsafe or unsound practices
(C&D)               or a violation of laws and regulations. A C&D may be terminated when
                    the bank’s condition has significantly improved and the action is no
                    longer needed or the bank has materially complied with its terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.
Prompt Corrective   The purpose of PCA is to resolve the problems of insured depository
Action (PCA)        institutions at the least possible long-term cost to the DIF. Part 325,
                    subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital adequacy:
                    (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three undercapitalized categories.



                                            28
                                                                             Appendix 2

                            Glossary of Terms

Term             Definition
SBA 504 Loans    The SBA 504 loan program is a co-lending product for long-term assets
                 that involves a collaboration between a private sector lender, such as a
                 bank, and a certified development company (CDC). Each party makes a
                 separate loan to a qualifying small business. Typically, the bank portion
                 consists of a loan secured by a first lien on the project, covering
                 50 percent of the project cost. The CDC portion consists of a loan
                 secured by a second lien on the project, which covers 40 per cent of the
                 project cost. The borrower is expected to cover the remaining 10
                 percent of the project cost. A secondary market for SBA 504 first lien
                 loans exists, facilitating liquidity management at the lending bank.
SBA 7(a) Loans   The SBA 7(a) program’s mission is to help small businesses receive
                 credit. The program provides loan originators a guarantee that if a loan
                 defaults, the SBA will pay off a portion of the remaining balance.
                 Standard 7(a) loans between $150,001 and $2 million receive a 75
                 percent guarantee; those $150,000 and under receive an 85 percent
                 guarantee. The guaranteed, and, to a lesser extent, the unguaranteed,
                 portion of an SBA 7(a) loan can be sold into the secondary market.
Troubled Asset   The TARP was established under the Emergency Economic Stabilization
Relief Program   Act of 2008. The Act established the Office of Financial Stability within
(TARP)           the Department of the Treasury. Under the TARP, Treasury will
                 purchase up to $250 billion of preferred shares from qualifying
                 institutions as part of the Capital Purchase Program.
Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from Call
                 Report data submitted by banks.




                                         29
                                                            Appendix 3
                         Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and
         Sensitivity to Market Risk
CDFI     California Department of Financial Institutions
CLP      Contingency Liquidity Plan
CRE      Commercial Real Estate
CRP      Capital Restoration Plan
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
FRB      Federal Reserve Bank
FRBSF    Federal Reserve Bank of San Francisco
MOU      Memorandum of Understanding
OCC      Office of the Comptroller of the Currency
OIG      Office of Inspector General
PCA      Prompt Corrective Action
RM       Relationship Manager
SBA      Small Business Administration
TARP     Troubled Asset Relief Program
TVB      Temecula Valley Bank
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System

                               30
                                                                                    Appendix 4
                                 Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection


 TO:              Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

 FROM:            Sandra L. Thompson
                  Director

 SUBJECT:         Draft Audit Report Entitled, Material Loss Review of Temecula Valley Bank,
                  Temecula, California (Assignment No. 2009-060)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Temecula Valley Bank (TVB) which failed on July 17, 2009. This memorandum is the response
of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report
(Report) received on January 25, 2010.

The Report concludes that TVB management’s decision to concentrate the loan portfolio in
commercial real estate (CRE) and acquisition, construction, and development (ADC) loans and
its reliance on non-core funding sources were the principal factors leading to TVB’s
deteriorating financial condition and ultimate failure. TVB’s risk management practices were
not sufficient for its business strategies of out-of-area SBA loans and participations and
concentrations in CRE/ADC lending. The rapid deterioration of local California real estate
markets resulted in increased delinquencies and non-performing assets. TVB did not possess
adequate liquidity to continue its lending strategies and was unable to raise additional capital to
absorb the loan losses and support operations.

From 2006 to 2009, the FDIC and the California Department of Financial Institutions (CDFI)
jointly conducted three full-scope examinations and three visitations. DSC also conducted
offsite reviews and other offsite monitoring activities during this period. Examiners expressed
concern about TVB’s CRE and ADC concentrations at the initial visitation in October 2006 after
TVB converted from a Federal Reserve member bank to a state nonmember bank. At the first
examination conducted jointly by the FDIC and CDFI in April 2007, TVB’s Board of Directors
was advised that credit risk and liquidity management practices needed substantial improvement.
At the April 2008 exam, asset quality was poor, overall liquidity was unsatisfactory, and an
informal enforcement program was implemented.

At the December 2008 joint visitation, examiners found that TVB had deteriorated to a level that
raised significant regulatory concern and posed considerable risk, and DSC and CDFI
implemented a formal enforcement program. DSC recognizes that strong supervisory attention
is necessary for institutions with high CRE/ADC concentrations and volatile funding sources,
such as TVB, and has issued updated guidance reminding examiners to take appropriate action
when these risks are imprudently managed.

Thank you for the opportunity to review and comment on the Report.



                                                  31
